 Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




DRG 79 VALIDATION STUDY UPDATE:
  RESPIRATORY INFECTIONS AND
         INFLAMMATIONS




              ‘e          .




              FEBRUARY   1993
                        OFFICE OF INSPECTOR         GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, as amended, is to protect the integrity of the Department of Health and Human
Services (HHS) programs as well as the health and welfare of beneficiaries served by
those programs. This statuto~ mission is carried out through a nationwide network of
audits, investigations, and inspections conducted by three OIG operating components:
the Office of Audit Services, the Office of Investigations, and the Office of Evaluations
and Inspections. The OIG also informs the Secretary of HHS program and
management problems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing sewices for HHS,
either by conducting audits with its own audit resources or by overseeing audit work
done by others. Audits examine the performance of HHS programs and/or its
grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations ‘of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions, administrative sanctions, or civil money penalties. The 01 also oversees
state Medicaid fraud control units which investigate and prosecute fraud and patient
abuse in the Medicaid program.

                 OFFICE OF EVALUATION            AND INSPECITONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term
management and program evaluations (called inspections) that focus on issues of
concern to the Department, the Congress, and the public. The findings and
recommendations contained in these inspection reports generate rapid, accurate, and
up-to-date information on the efficiency, vulnerability, and effectiveness of
departmental programs.

Amy L. Lockwood of BOTEC Analysis Corporation prepared this report with
direction from Janet W. Knight, BOTEC Project Director, and David C. Hsia, OIG
Project Officer. Contract information and project participants are listed in Appendix 1
to this inspection.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




DRG 79 VALIDATION STUDY UPDATE:
  RESPIRATORY INFECTIONS AND
         INFLAMMATIONS




         FEBRUARY   1993   OEI-12-89-00193
              EXECUTIVE                         SUMMARY

PURPOSE

This inspection reabstracted on a blinded basis, the International Classification of
Diseases, Ninth Revision, Clinical Modification codes from a sample of Medicare
discharges billed as diagnosis-related group (DRG) 79: Respiratory infections and
inflammations. It compared the reabstracted DRG to the hospital-billed DRG for
reimbursement changes. The sample was nationally representative and covered all of
1988, the most recent data available.

This inspection updated a previous Office of Inspector General (OIG) study. For
1985, the OIG found 18.4 percent errors among 74 reabstractions, improperly over-
reimbursing hospitals by a projected $28.4 million. This inspection used a parallel
methodology to make these studies statistically comparable. Statistical tests
determined whether numeric differences between 1985 results and 1988 results were
real (statistically significant) or could be attributed to random error.

FINDINGS

DRG 79 bihg    emr redhced

Of 123 discharges reabstracted for this inspection, 11 (8.9 percent) were incorrectly
assigned to DRG 79. This was a statistically-significant improvement over the 18.4
percent error rate for DRG 79 in 1985. This rate also significantly differs from the
14.7 percent errors for all discharges in 1988.

Financial impact of DRG 79 billikg emor not redh.ced @nificantZy

This inspection projected that discharges incorrectly assigned to DRG 79 over-
reimbursed hospitals $22.7 million. This result did not significantly differ from the
$28.4 million over-reimbursement in 1985. The increase in the number of DRG 79
bills in 1988 offset the decrease in the proportion of errors.




                                            i
                          TABLE                          OF CONTENTS

EXECUTIVE            suMMARY


INTRODUCTION                 ................................................. 1

FINDINGS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4

     S Errors reduced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                           .        4
     “Most errors over-reimbursed hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                         �        4
     “Hospitals still over-reimbursed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                   �        4

ENDNOTES             ...................................................                                                                                                                                      �    �   6

AGENCY COMMENTS                          �   .0..0.      .   .        .   .   .   .   .   .0.,...                           .   .   .   .   .   .   .   .0...00                  .   ..00..                   .0       7

APPENDICES

f%    Project participants           .   . . . . . . . .     ..0..0                       .         .   .   .   .   .   .   .   .   .   .   .   .   .   .         .   .   ...0   .   .   .    .   .   .   .        A-1

B: ICD-9-CM procedure codes in DRG79                                                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1

c Sample representativeness                           .....................................                                                                                                                        c-1

D: DRG79billing              errors, 1985 and 1988..                                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1

E. DRG79case-mix                index change, 1985 and 1988 . . . . . . . . . . . . . . . . . . . . . . . E-1

F: Reasons for DRG79errors,                           1985 and 1988 . . . . . . . . . . . . . . . . . . . . . . . . . . F-1
                         INTRODUCTION

Background

Diagnosis-related group (DRG) 79: Respiratory infections and inflammations;
includes 168 International Classification of Diseases, Ninth Revision, Clinical
Modification (ICD-9-CM) codes. These ICD-9-CM codes identi~ infectious diseases,
particularly tuberculin bacillus exposure or tuberculosis infection, as well as anthrax,
mycobacterial infections, empyema, abscesses, and similar infectious conditions.
Tuberculosis incidence had decreased with improved standards of living and the
advent of antibiotics. It has recently become endemic again, primarily in immigrant
and homeless populations. This resurgence may also affect Medicare beneficiaries.

DRG 79’s weight increased from 1.7795 in 1985 to 2.0777 in 1988. Since 1985, the
Health Care Financing Administration (HCFA) altered DRG 79 to eliminate “age
over 69” as a complication code and created DRGs 474 and 475 for ventilator-assisted
patients. These changes shifted billings in one quarter of the data collection period
for this inspection.

In a previous study, the OIG found that DRG 79 had a disproportionately high
proportion of billing errors.1 Correct ICD-9-CM coding would have grouped 18.4
percent of its 74 reabstractions to different DRGs in 1985. These billing errors over-
reimbursed the hospitals a projected $28.4 million.

This inspection updated the previous study using 1988 data, the most recent available.
It used a parallel methodology to make these inspections statistically comparable.

Methodology

This inspection randomly selected 123 DRG 79 discharges from 26 hospitals. The
study population consisted of 102,561 Medicare-reimbursed DRG 79 discharges during
Calendar Year 1988. The design excluded discharges from specialty institutions such
as children’s hospitals, tuberculosis units, and psychiatric facilities. It also excluded
discharges in Maryland and New Jersey, which the PPS still exempted in 1988. Finally,
it excluded bills for pediatric, obstetric, and psychiatric DRGs (principally drug and
alcohol rehabilitation performed by a general hospital).2 Unlike its 1985 predecessor,
it included hospitals established since the advent of the PPS in 1983.

The OIG requested that hospitals send complete copies of the sampled medical
records to the OIG’S contractor, Baxter-Health Data Institute (HDI) of Lexington,
MA. The OIG followed-up missing records and issued subpoenas to compel the
cooperation of four hospitals.

The OIG contracted with the American Medical Record Association (AMR~ now
named the American Health Information Management Association, or AHIMA) to


                                             1
reabstract the charts. The AMRA selected ICD-9-CM codes supported by the record,
determined the principal diagnosis, and grouped to select the correct DRG. To assure
that the original ICD-9-CM codes and DRGs did not affect the reabstraction, the
AMRA coders conducted their work without knowledge of the original ICD-9-CM
codes and DRGs. The coders had instructions not to treat marginal problems or
honest differences in judgment about appropriate coding as DRG errors. This
standard should have produced a conservative estimate of the proportion of discharges
having DRG errors. A series of reliability checks verified the reproducibility and
accuracy of the AMRA coding. The AMRA also identified the reasons why a
hospital’s bill differed from the correct codes.

BOTEC Analysis Corporation of Cambridge, Massachusetts (BOTEC) edited the
AMRA database, checked the sample’s representativeness, and conducted statistical
analyses of the correlates and financial consequences of DRG 79 miscoding. It also
reweighted the 1985 data to improve comparability with this inspection. Statistical
tests determined whether numeric differences between 1985 results and 1988 results
were real (statistically significant) or could be attributed to random error.

Representativeness

The sample generally resembled the underlying population of DRG 79 bills with
respect to hospital and patient characteristics. The one exception to this was the
distribution of the sample with respect to hospital size. [Appendix C].




                                           2

                       Bed size                                        Teachingstatus




                                                       reteaching
                                                                                 Nonteating

          sample                    Population               Sample                     Population


                    Location                                                  Control
                   Me@@ltan
    -w_
                           n
                                                                 (’2”                   (a”
                                                                 u
                                                         Nonprofit
                                                                                        u
                                                                                 Nonprofit



          sample            Population                          sample                   Population

Figure l: DRG79sample             representativeness       byhospital       demography,        1988


                         Age                                                    Sex
                                            65-74                                            Male
                   65-74                                             Male



      75-84                    75-84

                                                 +                   Female
                                                                                                    Female
              Sample               Population                        Sample                  Population



                                                     Race



                               Q                 @;~’



                               Sample            Population




                                                     3
                                  FINDINGS

Errors reduced
                                                  Peflferit
Of the 123 sample discharges, 11 (8.9
percent) were incorrectly assigned to               20
DRG 79. This significantly improved                      1
upon the 18.4 percent error rate in                 15
                                                                                         �   1988
1985.a Small hospitals billed more
accurately than in 1985, and bills for              10
patients less than 65 years old, and aged
                                                     5
75-84, were more accurate than in 1985.
[Appendix D].                                        0[
                                                              DRG 79       All DRGs

The improvement in accuracy in DRG
79 differed significantly from the          Figure 3: Proportion of DRG 79 and all
improvement in all DRGs from 1985 to co’&ng errors; 1985 & 1988
1988, from 20.8 percent in 1985 to 14.7
percent in 1988. This inspection’s 8.9 percent DRG 79 error rate also differed
significantly from the 14.7 percent of errors in all DRGs in 1988.3

Most errors over-reimburse    the hospitals

Of the 11 billing errors, 90.9 percent
                                                    Percent
over-reimbursed to the hospitals. This                   I             I    I          Emr   direction
was not a significant improvement upon              o                                 Under-reimbursed
the 100.0 percent over-reimbursement                                                  Over-reimbursed

reported in 1985.
                                                   -50



Hospitals still over-reimbursed
                                                  100
                                                                           19ss

The 123 sample discharges originally
carried Relative Weights of 2.0777,
equivalent to $6,478 in metropolitan    Figure 4: Direction of DRG 79 errors, 1985
hospitals and $5,479 in nonmetropolitan & 1988
hospitals. The AMRA reabstraction, which resulted in 11 discharges reassigned to a
DRG other than DRG 79, reduced the case-mix index (CMI) to 2.0057, a statistically


a. Because of the smaller sample size that results from DRG-specific analysis, estimates
of coding for specific DRGs are less precise than OIG’S national estimate. Statistical tests
determined whether apparent differences were real (statistically significant) or could be
attributed to random error.


                                              4
significant decline of 0.0720. This
reduction persisted across all hospital      $ gikm
and demographic characteristics. The
net CMI change in 1988 differed
significantly from the net CMI change            20-
for DRG 79 bills in 1985. It also
differed significantly from the net CMI
change for all bills in 1988. [Appendix          lo-
E].

Extrapolation of the 1988 CMI change           0-
to all 102,561 DRG 79 discharges                       1985            1988
projected that billing errors over-
reimbursed hospitals a statistically       Figure 5: DRG 79 over-reimbursement from
significant $22.7 million. This over-      miscoding, 1988 & 1985
reimbursement did not statistically differ
from the $28.4 million the OIG previously reported for 1985. The proportion of
errors decreased over time, but the increase in DRG 79’s frequency completely offset
the improvement in billing accuracy.

Reasons for errors

AMRA identified only two types of errors in the sample, misspecification and
resequencing. No miscoding or other errors occurred. [Appendix F].

MissPecification	    The attending physician wrote down the wrong narrative diagnosis
                     on the attestation.

Resequencing	        The attending physician wrote the correct, narrative, principal
                     diagnosis on the attestation, but the hospital substituted a
                     secondary diagnosis for the principal diagnosis.

Misspecification caused 81.8 percent of the 11 billing errors. This proportion
significantly exceeded the 54.9 percent misspecificat~on errors in 1985.- It also
significantly exceeded the 63.2 percent misspecifications for all DRGs in 1988.

Resequencing caused 18.2 percent of the sample’s billing errors. This proportion       did
not significantly diffel from the 20.0 percent resequencing errors in 1985.




                                            5

                                       ENDNOTES


1. Meyers M, Kleiman M, Stone D, Lee F, Schutte J, Hsia D, & Krushat M. DRG 79:
respiratory infection. Washington, DC: HHS Office of Inspector General, 1989. Publication
no. OAI-12-88-01190.

2. Knight J W & Hsia D C, eds. National DRG Validation Study Update: Technical Report.
Washington, DC: HHS Office of Inspector General, 1992. Publication no. OEI-12-90-00191.

3. Knight J W & Hsia D C, eds. National DRG Validation Study Update: Summary Report.
Washington, DC: HHS Office of Inspector General, 1992. Publication no. OEI-12-90-00190.




                                             6

                      .
                                                                                 Health     Care
          DEPARTMENTOF HEALTHa HUMAN SERVICES                                    Financing       Admmwtratlon




           ax     519W
                                                                                 Memorandum
Date


From
          “%iiii29@ “     9“

           Acting Administrator

Subject    Office of Inspector General (OIG) Draft Report: “DRG 79 Validation Study

           Update: Respiratory Infections and Inflammations,” 0EI-12-89-O0193

To
           Byan B. Mitchell

           Principal Deputy Inspector General



                 We have reviewed the subject draft report which examined the coding accuracy
           of prospective payment discharges billed as diagnosis related group (DRG) 79. In a
           previous study, OIG sampled DRG 79 bills on a blinded basis and found upcoding
           that resulted in overpayment to hospitals of $28.4 million in 1985.

                In this repor~ OIG documented a significant improvement in coding accuracy
           for DRG 79, from over 81 percent in 1985 to over 91 percent in 1988. Despite this
           improvement the financial impact of DRG 79 billing errors was not reduced
           significantly because the errors continue to result in systematic overpayment to
           hospitals. In addition, hospitals billed a larger number of discharges to DRG 79 in
           1988.

                This report contained no recommendations for firther action, though OIG
           noted the findings of this report support the recommendation of an earlier and
           broader study: “National DRG Validation Study Update: Summary Report,”
           0EI-12-89-O0190. In this earlier repo~ OIG recommended that peer review
           organizations (PROS) continue their surveillance of hospital coding for DRG
           accuracy.

                We disagree with tie characteriution    of certain billing mistakes as coding
           errors in situations where medical record coders are dependent on physician
           narratives. However, we agree with the broad recommendation about PROS
           surveillance of hospital bills for accuracy.

                Attached for your consideration are our detailed comments. Thank you for the
           opportunity to review and comment on this draft report. Please advise us whether
           you agree with our comments on the report at your earliest convenience.

           Attachment




                                                    7




                                                                        s u.S. QOVSRNMENT   PRINTING   OFFICE: 1ss2 - 522-060/5182
            Comments of the Health Care Financing Administration (HCFA)
               on Office of the Ins~ector General (OIG) Draft Report:
             “DRG 79 Validation StudVU~date:Res~iratorv Infections and
                          Inflammations.” OEI-12-89-00193



General Comment

The findings set forth in this report indicate that 81.8 percent (9 out of 11 cases) of
DRG 79 billing errors uncovered by the audit were caused by the failure of the
attending physician to indicate the principal diagnosis correctly in the narrative on the
attestation. We would not characterize these as coding errors because medical record
coders use a physician’s attested-to narrative when coding a Medicare discharge. Rather,
this study points to problems with the physician narratives.

Therefore, we agree with the broad recommendation that peer review organizations
continue their sumeillance of hospital bills for accuracy including both physician
descriptions of diagnoses and procedures, and the subsequent coding of narratives by
medical record personnel.

Technical Comments

Page 1. ICD-9-CM should be written out as follows: International Classification of
Diseases, Ninth Revision, Clinical Modification.

Page 2. In October 1991, The American Medical Record Association (AMRA) formally
changed its name to the American Health Information Management Association
(AHIMA). Even though this audit was conducted under the auspices of AMRA, OIG
may wish to make mention of this change in the introduction of this report. Suggested
language is as follows:

     “OIG contracted with the American Medical Records Association (AMRA) to
     reabstract the charts. That association has since changed its name to the
     American Health Information Management Association (AHIMA), but will
     be referred to herein as AMRA.”




                                                                                            .   .




                                                   8
                            APPENDIX                  A

Project participants

OIG
Cathaleen A. Ahern, B.A.
Evan J. Buckingham, B.A.
David C. Hsia, J.D., M.D., M.P.H.
Thomas F. Komaniecki, M.P.A.
W. Mark Krushat, M.P.H.
Linda M. Moscoe, B.A.
Brian P. Ritchie, B.A.
Barry L. Steeleyb
John M. Traczyk, B.A.

HCFA
Timothy F. Greene, M.A., M.B.A.
Stephen F. Jencks, M.D.
Michael R. McMullan, M.B.A.
Harry L. Savitt, Ph.D.
Jeanette M. Smith, M.D., M.P.H.c
Malcolm A. Sneen, B.S.

RAND Corporation
Haya P. Rubin, M.D., Ph.Dd

Baxter-Health Data Institutee
Patricia J. Baxter, R.N.
Patricia Cassidy-Tsnosas, R.N.
Annette M. Delaney, R.N., M.A.
Ellen B. Inghilleri, R.N.
Janet Mathews, A.R.T.
Laurie H. Moore, R.R.A.
Claire Shannon, A.R.T.
Michele A. Wiese, B.A.

AMRA
Margret K. Amatayakul, M.B.A., R.R.A.
Mary Converse, R.R.A.


b. Now at   Health Audit Services, Ellicott City, MD.
c. Now at   the Journal of the American Medical Association, Chicago, IL.
d. Now at   Johns Hopkins Medical Institutions.
e. Ceased   operations February 16, 1990.


                                          A -1
Nicholas J. Cotsonas, M.D.f

Linda Ertl, R.R.A.

Rita M. Finnegan, R.R.A.

Desla Mantilla, A.R.T.

Barbara Manny, R.R.A.

Sonia Martyniuk, R.R.A.

Toula Nicholas, A.R.T.

Charlotte Razor, R.R.A.

LouAnn Schraffenberger, R.R.A.

Lynn Smetko, R.R.A.

Dawn Smith, A.R.T.

Joan Zacharias, A.R.T.


BOTEC Analvsis Corporation

Geraldine M. Berenholz, R.R.A.

Andrew H. Chalsma, B.A.

David P. Cavanagh, M.A., Ph.D.

Janet W. Knight, R.N., Ph.D.

Amy L. Lockwood, B.A.


                                  Contract information

Contractor

BOTEC Analysis Corporation

1698 Massachusetts Avenue

Cambridge, MA 02138


Proiect Officer

David Hsia, J.D., M.D., M.P.H.

Office of Inspector General

330 Independence Avenue

Washington, D.C. 20201


Contract

HHS-1OO-9O-OO23

Firm-fixed price contract

$203,257





f. Outside contractor.


                                          A -2
                         APPENDIX                   B

ICD-9-CM codes in DRG 79

003.22     Salmonella pneumonia
006.4      Amebic lung abscess
010.0      Primary tuberculosis complex
010.1      Primary tuberculosis pleurisy
010.8      Primary progressive tuberculosis not elsewhere classifiable
010.9      Prima~ tuberculosis not otherwise specified
011.0      Tuberculosis lung infiltrative
011.1      Tuberculosis lung nodular
011.2      Tuberculosis lung with cavity
011.3      Tuberculosis of bronchus
011.4      Tuberculosis lung fibrosis
011.5      Tuberculosis bronchiectasis
011.6      Tuberculosis pneumonia
011.7      Tuberculosis meumothorax
011.8      Pulmonary tu~erculosis not elsewhere classifiable
011.9      Pulmonary tuberculosis not otherwise specified
012.0      Tuberculosis pleurisy
012.1      Tuberculosis thoracic nodes
012.2      Isolated tracheal tuberculosis
012.8      Respiratory tuberculosis not elsewhere classifiable
020.3      Primary pneumonic plague
020.4      Secondary pneumonic plague
020.5      Pneumonic plague not otherwise specified
021.2      Pulmonary tularemia
022.1      Pulmonary anthrax
 031.0     Pulmonary mycobacteria
 039.1     Pulmona~ actinomycosis
 052.1     Varicella pneumonitis
 055.1     Postmeasles pneumonia
 073.0      Ornithosis pneumonia
 095.1      Syphilis of lung
 112.4      Candidiasis of lung
 114.0      Primary coccidioidomycosis
 115.05     Histoplasma capsulatum pneumonia
 115.15     Histoplasma duboisii pneumonia
 115.95     Histoplasmosis pneumonia
 121.2      Paragonimiasis
 122.1      Echinococcus granulosus of the lung
 130.4      Toxoplasma pneumonitis
 136.3      Pneumocystosis
 482.0      K. Pneumonia pneumonia


                                       B-1
482.1   Pseudomonas pneumonia
482.4   Staphylococcus pneumonia
484.1   Pneumonia with Cytomegalif inclusion disease
484.3   Pneumonia in whoop cough
484.5   Pneumonia in anthrax
484.6   Pneumonia in aspergillosis
484.7   Pneumonia in other systemic mycoses
484.8   Pneumonia in infectious disease not elsewhere classifiable
507.0   Food/vomit pneumonitis
507.1   Oil/essence pneumonitis
507.8   Solid/liquid pneumonitis not elsewhere classifiable
510.9   Empyema without fistula
511.1   Bacterial pleurisy with effusion not tuberculosis
513.0   Abscess of lung
513.1   Abscess of mediastinum
519.2   Mediastinitis
510.0   Empyema with fistula
795.5   Tuberculin test reaction
v71.2   Observation for suspected tuberculosis




                                   B-2
                               APPENDIX                    C


Sample representativeness

Number [percent]       Population     Sample          Chi-square

Hospital demogra~hv
1-99 beds        22,539 [22.0]         37 [30.1]      5.04, 2 df, P= O.081
100-299 beds     39,061 [38.1]         48 [39.0]
300+ beds        40,918 [39.9]         38 [30.9]

Metropolitan        72,185 [70.4]      88 [71.5]      0.06, 1 df, P= O.195
Nonmetropolitan     30,333 [29.6]      35 [28.5]

Teaching            37,168 [36.3]      43 [35.0]      0.07, 1 df, P= O.21O
Nonteaching         65,350 [63.7]      80 [65.0]

Profit              13,910 [13.9]      16 [13.0]      0.06, 1 df, P= O.199
Nonprofit           86,303 [86.1]     107 [87.0]

Patient demo~ra~hv
<65 years          8,232 [8.0]           6 [4.9]      3.32, 3 df, P= O.652
65-74 years      25,384 [24.8]         29 [23.6]
75-84 years      38,686 [37.7]         56 [45.5]
85+ years        30,259 [29.5]         32 [26.0]

Male                54,795 [53.4]      62 [50.4]      0.37, 1 df, P= O.451
Female              47,766 [46.6]      61 [49.6]

White               89,424 [87.2]     110 [89.4]      1.38, 3 df, P=0.289
Black                 8,579 [8.4]       10 [8.1]
Other                  1,808 [1.8]       2 [1.6]
Unknown               2,750 [2.7]        1 [0.8]

Total             102,561 [100.0]    123 [100.0]

Note: Population frequencies may not sum to total because of missing cases.




                                               c-l

                             APPENDIX                         D

DRG 79 billing erro~    1985 and 1988

Number [proportion           1988                    1985              t-test
~ standard error]

Hos~ital demo~ra~hy
1-99 beds                1 [2.7 ~ 2.7]        24 [33.3 ~ 9.8]         6.37
100-299 beds            6 [12.5 ~ 4.8]        25 [20.0 ~ 8.2]         1.41
300+ beds               4 [10.5 t 5.0]         25 [8.0 & 5.5]         0.58

Metropolitan           10 [11.4 t 3.4]        46 [28.5 f 6.9]         3.09
Nonmetropolitan          1 [2.9 f 2.9]        28 [12.2 ~ 6.6]         2.39

Teaching                5 [11.6 f 4.9]         22 [9.3 * 4.7]         0.53
Nonteaching              6 [7.5 ~ 3.0]        52 [18.3 ~ 5.7]         2.22

Profit                   1 [6.3 ~ 6.3]          7 [13.8 t 8.0]        2.14
Nonprofit               10 [9.3 t 2.8]         67 [18.8 ~ 4.8]        1.93

Patient demo~ra~hv
<65 years               2 [33.3 * 21.1]          7 [0.0   t   0.0]    6.51
65-74 years             4 [13.8 A 6.5]         19 [26.2   f   11.7]   2.01
75-84 years              3 [5.4 * 3.0]         26 [50.8   ~   15.6]   6.39
85+ years                2 [6.3 ~ 4.3]         22 [12.9   t   6.4]    1.68

Male                     2 [3.2 ~ 3.2]         40 [13.3 * 4.1]        3.23
Female                  9 [14.8 ? 4.6~         34 [22.3 ~ 9.3]        1.19

White                   10 [9.1   t   2.8]
Black                    o [0.0   t   O.O]
Other                   1 [50.0   t   50.0]
Unknown                  o [0.0   t   0.0]

Total                   11 [8.9 *2.6]          74 [18.4 ~ 4.4]        L97




                                              D-1
                              APPENDIX                   E


DRG 79 case-mix index change, 1985 and 1988

Relative weight f    1988                1985                  Difference    t-test
standard error

Hos~ital demo~raphy
1-99 beds         -0.0213 ~ 0.0213      -0.2960 f 0.0909      0.2747        6.31
100-299 beds      -0.1149 t 0.0450      -0.2086 ~ 0.0863      0.0937        1.79
300+ beds         -0.0672 f 0.0456      -0.0861 t 0.0606      0.0189        0.44

Metropolitan        -0.0917 t 0.0314    -0.2623 t 0.0669      0.1706        3.25
Nonmetropolitan     -0.0226 f 0.0226    -0.1278 f 0.0751      0.1052        2.53

Teaching            -0.1075 ~ 0.0465    -0.0865 t 0.0435      -0.0210       0.52
Nonteaching         -0.0529 ~ 0.0260    -0.1916 f 0.0654       0.1387       2.72

Profit              -0.0557 f 0.0557    -0.1401 ~ 0.0817      0.0844        2.60
Nonprofit           -0.0745 k 0.0257    -0.1834 ~ 0.0488      0.1089        2.29

Patient demo~raphv
<65 years         -0.3657    & 0.2313   0.0000   k   0.0000   -0.3657       6.51
65-74 years       -0.1182    f 0.0564   -0.2980 t 0.1379       0.1798       2.75
75-84 years        -0.0230   ~ 0.0223   -0.4640 ~ 0.1486       0.4410       6.73
85+ years         -0.0608    * 0.0430   -0.1105 t 0.0568       0.0497       1.34

Male                -0.0271 ~ 0.0190    -0.1288 f 0.0407      0.1017        3.48
Female              -0.1177 t 0.0426    -0.2245 ~ 0.0988      0.1068        1.67

Total               -0.0720 f 0.0235    -0.1809 ~ 0.0457      0.1089        2.34




                                         E-1

                            APPENDIX               F

Reasons for DRG 79 erro~      1985 and 1988

Number
[percent]           Total 1988     Total 1985


Misspecification   9     [81.8]   6     [54.9]
Miscoding          o      [0.0]   2     [13.3]
Resequencing       2     [18.2]   3     [20.0]
Other              o      [0.0]   4     [26.7]

Total              11   [100.0]   15   [100.0]




                                            F -1
